No. 19-1138
In the

DeWayne D. Knight,
Petitioner
v.
Thomas Grossman, Jr., M.D.,
Respondent
On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Seventh Circuit
REPLY BRIEF FOR PETITIONER

Emily J. Greb
Counsel of Record
Michelle M. Umberger
Michael R. Laing
PERKINS COIE LLP
33 East Main Street, Suite 201
Madison, WI 53703-3095
EGreb@perkinscoie.com
(608) 663-7460
Counsel for Petitioner
DeWayne D. Knight

-iTABLE OF CONTENTS
Page(s)

TABLE OF CONTENTS .......................................... i
TABLE OF AUTHORITIES ................................... ii
INTRODUCTION ................................................... 1
ARGUMENT ........................................................... 2
I.
This Case is a Clean Vehicle
Through Which to Address the
Question Presented ........................... 2
II.
The Minority Circuits’
Framework Is Inconsistent with
This Court’s Jurisprudence ............... 4
A.
“Proof-of-Refusal”
Sanctions a Departure
from the Accepted and
Usual Course of Judicial
Proceedings ............................. 4
B.
A “Deliberate
Indifference”
Requirement Renders the
Fourteenth Amendment
Right to Informed
Consent Meaningless .............. 8
III.
There Is a Clear Split Among
the Circuits on an Important
Constitutional Question .................. 10
CONCLUSION ...................................................... 12

-iiTABLE OF AUTHORITIES
Page(s)
CASES
Braxton v. United States,
500 U.S. 344 (1991)........................................... 11
Celotex Corp. v. Catrett,
477 U.S. 317 (1986)............................................. 6
Cruzan v. Dir., Mo. Dep’t of Health,
497 U.S. 261 (1990)......................................... 3, 9
Daniels v. Williams,
474 U.S. 327 (1986)............................................. 9
Williams v. City of Chi.,
733 F.3d 749 (7th Cir. 2013) .......................... 5, 6
OTHER AUTHORITIES
Fourteenth Amendment ................................. passim
S.C.R. 10 ................................................................... 6

-1REPLY BRIEF FOR PETITIONER
INTRODUCTION
Respondent’s brief in opposition obfuscates
the issues requiring this Court’s guidance and
demonstrates why the Seventh Circuit’s decision
renders the Fourteenth Amendment right to
informed consent meaningless given the established
right to refuse medical treatment. These two rights,
though corollaries, are distinct. The right to
informed consent is a right to obtain medical
information reasonably necessary for the patient to
make an informed decision regarding medical
treatment; the right to refuse medical treatment is a
right for the patient to thereafter make the decision
whether to receive the medical treatment.
Deepening the circuit split, the Seventh
Circuit adopted the framework of a lone outlier
circuit requiring (1) deliberate indifference, and
(2) proof that the patient would have refused the
treatment. The Seventh and Second Circuits’
(hereinafter “the minority circuits”) framework is
untenable for two separate reasons. First, it imports
a deliberate indifference requirement, which
analyzes the physician’s state of mind, to the
Fourteenth Amendment right to informed consent,
which analyzes from the patient’s perspective the
information reasonably necessary to make an
informed decision whether to proceed with a given
treatment. Second, it requires proof that the patient
would have refused the treatment despite never
receiving the necessary information to make that
decision, which renders the right to informed

-2meaningless given the separate right to refuse
medical treatment.
On the other hand, the Third, Fourth, Fifth,
Ninth, and Tenth Circuits (hereinafter “the majority
circuits”) balance the information reasonably
required for a patient to make an informed decision
against valid state interests. Pet. for Cert. at 7.
ARGUMENT
Contrary to Dr. Grossman’s assertions, this
case is an appropriate vehicle to address the
question presented, which seeks to correct the
Seventh Circuit’s adoption of a framework that
abrogates, rather than supports, a Fourteenth
Amendment right to informed consent. The Seventh
Circuit’s decision to adopt the framework of the
Second Circuit, as opposed to a form of analysis used
in the majority of other circuits solidifies a circuit
split that necessitates this Court’s guidance.
I.

This Case is a Clean Vehicle Through
Which
to
Address
the
Question
Presented

Dr.
Grossman’s
recharacterization
of
Petitioner’s “question presented” aside, the proper
question presented is whether the Seventh Circuit
correctly adopted a minority analysis that requires
a showing of deliberate indifference and proof of
refusal to establish a violation of a prisoner-patient’s
Fourteenth Amendment right to informed consent.
Pet. for Cert. at i. It is readily apparent that a court
in the Second and Seventh Circuit would reach a
different result in nearly all cases than a court in the
Third, Fourth, Fifth, Ninth, and Tenth Circuits,
because the Second and Seventh currently require

-3the patient-plaintiff to prove (1) the mental state of
the defendant, and (2) that the plaintiff would have
refused the treatment (despite never receiving the
information necessary to decide whether to undergo
the treatment). This is a high burden. Thus, a total
of seven circuits have recognized the right to
informed consent and, in doing so, articulated
analyses for determining whether this right was
violated. However, only two require deliberate
indifference. The difference is ripe for this Court’s
resolution as it relates to adjudication of harms to a
constitutional liberty interest. Cruzan v. Dir., Mo.
Dep’t of Health, 497 U.S. 261, 278 (1990).
Respondent also argues that because the
Seventh Circuit’s decision stopped short of
answering the question of whether Petitioner met
the deliberate indifference element of the Pabon
framework, resolving the appeal on the proof-ofrefusal question, the issue of “deliberate indifference”
presented in Mr. Knight’s petition is not squarely
presented. But Respondent again misses the real
issue—whether deliberate indifference should be a
requirement in a Fourteenth Amendment informed
consent analysis, which the Seventh Circuit held
that it is. If this Court eliminates the minority
Pabon framework, the Seventh Circuit’s opinion
adopting the Pabon framework (i.e., including
deliberate indifference) must be reversed even
though the Seventh Circuit stopped short of
answering whether Dr. Grossman was deliberately
indifferent. This is a legal question, not a factual
question. The “deliberate indifference” issue is
squarely presented to this Court.
This case is a succinct vehicle by which this
Court may determine that this incongruity is unjust,
improper, and need be addressed, for it abrogates

-4the right to informed consent altogether as
demonstrated by the facts of this case.
II.

The Minority Circuits’ Framework Is
Inconsistent
with
This
Court’s
Jurisprudence
A.

“Proof-of-Refusal” Sanctions a
Departure from the Accepted and
Usual
Course
of
Judicial
Proceedings

The Seventh Circuit should be reversed on its
injection of the deliberate indifference standard
adopted from the unworkable Pabon framework in
the Fourteenth Amendment context, including its
inclusion of requiring a proof of refusal.
Petitioner
received
a
non-emergency
operation for which he was never consulted, of which
he did not need, without any notice or available
alternative treatment options by the treating
physician—Respondent’s own expert admitted that
the surgery Dr. Grossman unilaterally performed is
typically the last resort if all other, more
conservative treatment fails. And yet, the Seventh
Circuit held that such unilateral action does not
violate the patient’s right to informed consent. As Dr.
Grossman points out, the Seventh Circuit has done
so on the grounds that Petitioner failed to produce
sufficient evidence of his would-be refusal to the
surgery he was unaware of, despite it deriving from
the unrelated case law of another circuit, despite
him being the nonmoving party at summary
judgment, and despite the fact that the only
evidence on the question was that Petitioner’s brief
stated he “may well have” elected to undergo the

-5surgery had he been informed. ECF No. 28 at 13.
This “evidence” is not sufficient to abrogate his
entire claim.
In other words, the Second and Seventh
Circuit apply a “no harm, no foul” rule to the right to
informed consent—under their framework, the
patient must prove they would have refused the
treatment otherwise their rights were not violated.
But this rule contradicts the very purpose of
informed consent and is more properly applied to the
right to refuse medical treatment. If a patient never
receives the necessary information to determine
whether to consent to a procedure, for example,
because the patient is under anesthesia, how could
the patient know for certain after the procedure that
they would have refused the treatment prior to the
procedure? Even a patient who is miraculously
healed by a procedure with a success rate of one-ina-million might have refused the treatment prior to
the procedure if given the opportunity to choose. And
the flipside is possible—a typical patient would not
likely refuse a routine, noninvasive procedure with
a near-100% success rate, but if harmful
complications arise during the procedure, the
patient would probably allege, in hindsight, they
would have refused the treatment.
Even if the “proof of refusal” requirement is
proper in the right to informed consent analysis,
requiring an affirmative demonstration of refusal to
meet a standard of which the plaintiff is not on
notice violates the standards of review at summary
judgment. See Williams v. City of Chi., 733 F.3d 749,
755 (7th Cir. 2013) (“We have often explained that
district courts may not grant summary judgment on
grounds not argued by the moving party, at least not
without giving notice so that the non-moving party

-6has a full opportunity to present relevant evidence
and argument.”) (citing Celotex Corp. v. Catrett, 477
U.S. 317, 326 (1986)). District courts may only enter
summary judgment on issues a moving party has not
briefed so long as the losing party “was on notice that
she had to come forward with all of her evidence.” Id.
Dismissal in contravention to this legal bulwark is a
drastic departure from the “accepted and usual
course of judicial proceedings” and warrants
exercise of this Court’s supervisory powers. S.C.R.
10. The Seventh Circuit ignored this argument on
appeal.
In an argument that contradicts Dr.
Grossman’s own assertion that “proof of refusal is
not the question at hand,” Dr. Grossman contends
that Petitioner’s right to medical information is
“derivative of the patient’s right to refuse treatment,”
and that Petitioner’s “failure to establish that he
would have refused the surgery in question” renders
his “alleged deprivation of medical information [to
be] of no consequence.” Resp. Br. in Opp. at 7-8, 11.
First, as the Seventh Circuit described, the
right to informed consent is one part right to refuse
treatment and the other part a right to information
required to do so, which “[t]ogether . . . constitute a
right to informed consent.” Pet. for Cert. at 11a. The
right to informed consent is then violated when
there is either (1) a breach of a patient’s right to
refuse treatment; or (2) a breach of a patient’s right
to receive the necessary information. The Seventh
Circuit explained: “Without crucial information
about the risks and benefits of a procedure, the right
to refuse would ring hollow.” Pet. for Cert. at 11a.
But the Seventh Circuit’s adoption of the lone outlier
circuit’s framework contradicts that reasoning.

-7Dr. Grossman asks this Court to ignore the
right to receive necessary information, arguing
instead that, if this Court skips over half the
analysis to simply assume there was no violation of
the right to adequate information, Petitioner would
have refused the treatment and therefore an
“alleged deprivation of medical information [is] of no
consequence.” Resp. Br. in Opp. at 8. This argument
severs the half of the informed-consent analysis
which causes the right to refuse to ring hollow.
In most circuits, a patient has both the right
to be “informed” (i.e. the right to receive medical
information reasonably necessary) and the right to
“consent” (i.e. choose whether to accept or refuse the
treatment). In the Second and Seventh Circuits,
however, a patient has the right to be “informed, but
only if the patient’s right to consent is violated” and
the right to “consent.” A patient’s “right to informed
consent” is therefore not necessarily violated even
though the patient received no information
whatsoever. In the minority circuits, a patient truly
has only the right to consent, not the right to be
informed.
Moreover, it is clearly good public policy to
maintain a framework that errs on the side of
obtaining consent to perform surgery on a patient.
The framework created by Pabon is that a physician
need not inform the patient nor obtain a patient’s
consent before performing a surgery if (1) the
patient will be unable to prove in court that they
would refuse the surgery, or (2) the physician claims
they had “good intentions.” There is no justification
to categorically allow physicians to treat patients
without obtaining consent on the basis that such
consent could be assumed. In the event such
treatment is warranted, such is the purpose of

-8balancing the state interest against the right, as in
the majority of circuits. Proof of refusal, previously
foreign to informed consent analysis, is a backdoor
that deflates the right of informed consent.
B.

A
“Deliberate
Indifference”
Requirement
Renders
the
Fourteenth Amendment Right to
Informed Consent Meaningless

Requiring proof of refusal deflates the
Fourteenth Amendment right to informed consent,
but a deliberate indifference standard abrogates it
altogether. This is illustrated perfectly by
Respondent’s own recitation of the facts:
At this point, Dr. Grossman
found himself with a choice to make:
with Knight unconscious on the
operating table, he could close Knight’s
knee and end the operation, which
would leave Mr. Knight’s symptoms
unaddressed.
Alternatively,
Dr.
Grossman could move forward with the
procedures he had not discussed with
Knight, but believed would help him.
Dr. Grossman chose to keep operating.
Resp. Br. in Opp. at 4.
Under the minority circuits’ framework, there
can never be a violation of a patient’s right to
informed consent absent evidence of malintent. This
simply cannot be the law. A person’s right to bodily
integrity is too sacred to be defeated by the supposed
intentions of the physician. It is hard to imagine
there are many doctors in the world who intend
harm to their patients. But that is not the point. Mr.

-9Knight was deprived of the information reasonably
necessary to decide whether he wanted that
procedure.
Dr. Grossman is incorrect that imposition of a
deliberate indifference standard comports with
traditional due process analysis, as is evidenced by
the discordant cases upon which his opposition relies.
Citing Daniels v. Williams, Dr. Grossman claims
that “[a] simple lack of due care does not approach
the level of abusive government conduct that the
Due Process Clause was designed to prevent.” Resp.
Br. in Opp. at 15-16. First, it is a far leap from “lack
of due care” required for a due process violation to
“reckless disregard” or “shocking the conscious”
required of the deliberate indifference standard.
Simply because something “more than negligence” is
required for a constitutional violation does not mean
the defendant’s culpability must rise all the way to
the level of “reckless,” especially in the context of
protecting one’s own bodily integrity. Second,
Daniels involved a lawsuit from a prisoner who
slipped on a pillow. 474 U.S. 327, 328 (1986). In
contrast, Dr. Grossman chose to perform an
unnecessary surgery on a prisoner without their
informed consent. Dr. Grossman’s celebration of the
“luxury enjoyed by prison officials of having the time
to make unhurried judgments,” fails to square with
his own actions. Resp. Br. in Opp. at 16.
Pabon is clearly an outlier given the Third,
Fourth, Fifth, Ninth, and Tenth Circuits all hold
that prisoners retain a limited right to refuse
treatment and a right to be informed of the proposed
treatment and viable alternatives, subject to
legitimate countervailing state interests. Pet. for
Cert. at 7-8. This simple framework, which flows
from the analysis of this Court in Cruzan, is fully

-10practical and does not lead to justifying what is
clearly and intuitively a deprivation of the right to
informed consent for failure to establish ill-will of
the physician or an ex post facto patient “decision.”
The Seventh Circuit is, even if the Pabon
framework is applied, wrong on being unable to find
that the deliberate indifference standard was not
breached. Even if this Court were to “ask whether
the defendant was deliberately indifferent to the
prisoner’s right to refuse treatment,” (Pet. for Cert.
at 14a) it is difficult to imagine a scenario of clearer
deliberate indifference to a right to refuse treatment
than a physician who deliberately performs an
unnecessary surgery on an unconscious patient.
Resp. Br. in Opp. at 4.
As such, the Seventh Circuit’s adoption of the
Pabon framework disserves the Fourteenth
Amendment, is so inconsistent with its
jurisprudence that it emboldened the lone outlier of
a circuit split, and even if applied warrants a
reversal.
III.

There Is a Clear Split Among the Circuits
on
an
Important
Constitutional
Question

The Second and Seventh Circuits require both
a showing of deliberate indifference and proof of
refusal; the five other circuits that have addressed
the exact same question do not require either. That
is a circuit split.
Respondent argues that there is no such
circuit split. Resp. Br. in Opp. at 20–32 (arguing that
Petitioner “attempt[s] to manufacture a purported
‘circuit split’ where none exists” and “the Third,

-11Fourth, Fifth, Ninth, and Tenth Circuits have
[not] . . . adhered to a formal standard for assessing
a patient’s right to medical information under the
Fourteenth Amendment”) is counterfactual. Indeed,
Respondent cannot, and does not, deny that the
Second and Seventh Circuits require a showing of
deliberate indifference and proof of refusal. The
Third, Fourth, Fifth, Ninth, and Tenth Circuits, on
the other hand, do not.
Not only is there a circuit split, the varying
evidentiary requirements on either side of the circuit
split to establish a violation of a substantive due
process right is astonishing. The Third, Fourth,
Fifth, Ninth, and Tenth Circuits uniformly do not
require deliberate indifference, but instead balance
the fundamental right to refuse a procedure and
corresponding right to information about the
procedure against legitimate state interests,
without imposing this disqualification on the right.
Pet. for Cert. at 6-7. The Second and Seventh Circuit
do require such a showing. Pet. for Cert. at 8. Until
the split is resolved, the Fourteenth Amendment
right of prisoner-patients to informed consent will
starkly contrast depending on the circuit and a
plaintiff in the Second and Seventh Circuits will
have almost zero chance of success.
There is no doubting the existence of a circuit
split. This Court is the sole body that can eliminate
constitutional conflicts among the United States
courts of appeals, See Braxton v. United States, 500
U.S. 344, 347–48 (1991). When unresolved, these
conflicts result in incongruent individual rights,
varying in nature and scope, based solely on
geographic location. A patient in the Second or
Seventh Circuit has a cruelly diminished, near-nonexistent, right compared to a patient in equal

-12circumstances in other circuits. For many, these
additional hurdles will be a total bar from relief in
otherwise recoverable cases.
The scope of this important substantive due
process right to informed consent direly needs
guidance from this Court to unify the circuits.
CONCLUSION
For the foregoing reasons, Petitioner
DeWayne Knight respectfully requests this Court
grant his petition for writ of certiorari.

RESPECTFULLY SUBMITTED, this 29th day of
June, 2020

Emily J. Greb
Counsel of Record
Michelle M. Umberger
Michael R. Laing
PERKINS COIE LLP
33 East Main St., Suite 201
Madison, WI 53703-3095
(608) 663-7460
EGreb@perkinscoie.com
Counsel for Petitioner
DeWayne D. Knight

